                                U.S. DEPARTMENT OF ENERGY
                               OFFICE OF INSPECTOR GENERAL
                              AUDIT OF DEPARTMENT OF ENERGY
                               SUPPORT SERVICE CONTRACTING
Report Number:                      Capital Regional Audit Office
Date of Issue:                      Germantown, MD 20874

REPORT NO.                  U.S. DEPARTMENT OF ENERGY          RELEASE DATE
                           OFFICE OF INSPECTOR GENERAL

CR-B-95-06                                                   JUNE 30, 1995
_________________________________________________________________
_______________________




                            AUDIT OF DEPARTMENT OF ENERGY
                             SUPPORT SERVICE CONTRACTING




                         U.S. DEPARTMENT OF ENERGY
                        OFFICE OF INSPECTOR GENERAL



                                 AUDIT OF

                            DEPARTMENT OF ENERGY

                        SUPPORT SERVICE CONTRACTING


The Office of Audit Services wants to make the distribution of
its audit reports as customer friendly and cost effective as
possible. Therefore, this report will be available
electronically through the Internet 5 to 7 days after publication
at the following alternative addresses:

                 Department of Energy Headquarters Gopher
                          gopher.hr.doe.gov

            Department of Energy Headquarters Anonymous FTP
                        vm1.hqadmin.doe.gov

We are experimenting with various options to facilitate audit
report distribution. Your comments would be appreciated and can
be provided on the Customer Comment Form attached to the Audit
Report.




Report Number:   CR-B-95-06              Capital Regional Audit Office
Date of Issue:   June 30, 1995           Germantown, Maryland 20874




                    AUDIT OF DEPARTMENT OF ENERGY
                     SUPPORT SERVICE CONTRACTING


                          TABLE OF CONTENTS

                                                              Page

           SUMMARY ........................................     1

PART I   - APPROACH AND OVERVIEW ..........................     3

           Introduction ...................................     3

           Scope and Methodology ..........................     3

           Background .....................................     5
            Observations and Conclusions ...................     6

PART II   - FINDING AND RECOMMENDATIONS ....................     8

            Support Service Contract Arrangements ..........     8

PART III - MANAGEMENT AND AUDITOR COMMENTS ................     18

PART IV   - OTHER MATTERS ..................................    22

PART V    D APPENDICES .....................................    24

            A.   SUPPORT SERVICE CONTRACT A LABOR HOURS
                 BY TASK ....................................   24

            B.   SUPPORT SERVICE CONTRACTOR AND SUBCONTRACTOR
                 ACTUAL COSTS, FEES, AND LABOR HOURS ........   25
                                  #=1
                  U.S. DEPARTMENT OF ENERGY
                    OFFICE OF INSPECTOR GENERAL
                     OFFICE OF AUDIT SERVICES

                   AUDIT OF DEPARTMENT OF ENERGY
                    SUPPORT SERVICE CONTRACTING


Audit Report Number: CR-B-95D06

                              SUMMARY


     The Department of Energy (Department) awards support service
contracts when it needs to acquire special knowledge and skills
not available within the Department or when they are available in
the private sector at a lesser cost. Annual expenditures for
support service contracts have increased from $88 million in 1980
to $674 million in Fiscal Year 1994. The Department's 313 active
support service contracts cover a wide variety of services that
help the Department accomplish its mission. They include grounds
maintenance, security, electrical and plumbing, transportation,
and management support services.

     The purpose of this audit was to review the Department's
acquisition and use of support service contractors and
subcontractors. The audit objectives were to determine if the
Department (1) paid fees to both support service contractors and
subcontractors for services exclusively performed by
subcontractors, (2) used support service contractors to perform
inherent government functions, and (3) rolled over unearned award
fees to subsequent evaluation periods and had adequate management
controls to ensure that contractor performance would be
evaluated.

     The Department did not always obtain support services in the
most economical and effective manner. The Department negotiated
and paid four of six support service contractors an estimated
$5.1 million in fees for services exclusively provided by
subcontractors because the Department did not have a policy which
addressed the inclusion, at the pre-award phase, of subcontract
labor in the support service contractors' fee determinations.
Furthermore, while we found no instances where support service
contractors performed inherent government functions, we did note
that the Department maintained minimal administration over major
portions of contracted-for services on three of six support
service contracts. This occurred because contractors
subcontracted extensively for support services. Consequently,
the Department may have decreased their ability to control cost
growth on these three contracts. As discussed in Part IV, the
Department's process was sufficient in five of six cases to
evaluate support service contractor performance. However, one of
six cost-plus-award-fee contractors received award fees that
exceeded its performance ratings by $89,000 because one
Departmental office elected to rollover unearned portions of fees
from prior evaluation periods and make them available in the next
evaluation period.
     To resolve these issues, we recommend that the Deputy
Assistant Secretary for Procurement and Assistance Management
(1) develop and implement support service pre-award procedures
starting with the request for proposals that ensure the support
service contractor's fee is based only on the direct labor hours
they expend and (2) pursue opportunities to reduce support
service contractors' subcontracting to a level where the
Department, not the support service contractor, is administering
a substantial portion of support services.

     Department management did not concur with the finding and
recommendations noting that the recommendations are inappropriate
and lack supporting rationale.




                                    Office of Inspector General
                               PART I

                        APPROACH AND OVERVIEW


INTRODUCTION

     The Department awards support service contracts when it
needs to acquire special knowledge and skills not available
within the Department or when they are available in the private
sector at a lesser cost. Annual expenditures for support service
contracts have increased from $88 million in 1980 to $674 million
in Fiscal Year 1994.

     The purpose of this audit was to review the Department's
acquisition and use of support service contractors and
subcontractors. The objectives of this audit were to determine
if the Department (1) paid fees to both support service
contractors and subcontractors for services exclusively performed
by subcontractors, (2) used support service contractors to
perform inherent Government functions, and (3) rolled over
unearned award fees to subsequent evaluation periods and had
adequate management controls to ensure that contractor
performance would be evaluated.

SCOPE AND METHODOLOGY

     The audit was performed from September 13, 1993, through
July 28, 1994, at the Department's Chicago Operations Office;
Headquarters Procurement Operations Office; Pittsburgh and
Morgantown Energy Technology Centers; and Yucca Mountain Project
Office. We also obtained information on two support service
contracts from Albuquerque Operations Office and Western Area
Power Administration officials. We used September 16, 1993,
Procurement and Assistance Data System information to select a
judgmental sample of support service contracts for review at
these locations. As of September 16, 1993, the system listed 313
active support service contracts totaling $2.4 billion. We
evaluated nine support service contracts (listed in Table 1)
valued at $769 million.

     Service contracts A through C are cost-plus-fixed-fee
contracts and contracts D through I are cost-plus-award-fee
contracts. The primary difference between the cost-plus contract
documents is the method used to determine the fee. A
cost-plus-fixed-fee contract provides for payment to the
contractor of a negotiated fee that is fixed at the beginning of
the contract. The fee does not vary with actual cost but may be
adjusted as a result of changes in the scope of work performed
under the contract. In contrast, a cost-plus-award-fee contract
provides for a fee consisting of (1) a base amount (which may be
zero) fixed at inception of the contract and (2) an award amount
based upon a judgmental evaluation by the Government sufficient
to provide motivation for excellence in contract performance.
   IMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMM;
   :                          TABLE 1                            :
   :                                                             :
   :                  SERVICE CONTRACTS REVIEWED                 :
   :                                                             :
   : Departmental       Service    Contract    Departmental      :
   :     Office        Contracts      Type    Contract Number    :
   :                                                             :
   : Headquarters         A         CPFF      AC01-93EW10279     :
   : Chicago              B         CPFF      AC02-90CH10415     :
   : Morgantown           C         CPFF      AC21-90MC26328     :
   : Headquarters         D         CPAF      AC01-88MA33222     :
   : Pittsburgh           E         CPAF      AC22-89PC88400     :
   : Nevada*              F         CPAF      AC08-87NV10576     :
   : Headquarters         G         CPAF      AC01-92MA21100     :
   : Albuquerque          H         CPAF      AC04-91AL58678     :
   : West. Area Power     I         CPAF      AC65-89WA04360     :
   :                                                             :
   : CPFF = Cost-plus-fixed-fee                                  :
   : CPAF = Cost-plus-award-fee                                  :
   : * Contract administered by Yucca Mountain Project Office :
   :                                                             :
   HMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMM<

     We reviewed six of the nine contracts (A through F) to
determine whether the Department (1) negotiated and paid fees to
its support service contractors for services exclusively provided
by subcontractors, (2) used support service contractors to
perform inherent Government functions, and (3) maintained control
over contracted-for support services. The other three contracts
(G through I) were not addressed under objectives one and two
because of their relatively small dollar value. For contracts A
through F, we reviewed pre-award documentation and identified
subcontractor hours included in the support service contractors'
fee calculation. We multiplied the percentage of subcontractor
hours provided on each contract by the total fees paid to the
service contractor to determine the amount of fees the Department
paid to six support service contractors for work performed by
subcontractors. We analyzed contractual arrangements between
support service contractors and subcontractors and task
assignments issued to each to determine if the support service
contractors performed inherent Government functions and whether
the Department administered contracted-for services. Service
contractor and Departmental officials were also interviewed to
determine the service contractor's role on those tasks that were
primarily performed by subcontractors.

     Furthermore, we reviewed six cost-plus-award-fee contracts
(D through I) to determine if adequate management controls
existed to evaluate contractor performance and if contractor
award fees exceeded its performance ratings. We examined award
fee evaluation processes, procedures, plans, and determination
reports. We also reviewed contractor invoices and award fee
determination reports to determine if Departmental offices rolled
over unearned service contractor award fees to subsequent
evaluation periods. If unearned award fees were rolled over, we
analyzed service contractor award fee payments to determine if
they exceeded their performance ratings.

     We examined applicable Federal laws and Federal and
Departmental regulations, procedures, and practices as well as
Department and contractor records and documents. We also
interviewed Departmental officials responsible for administering
these contracts, contractor personnel, and Office of Management
and Budget officials to obtain additional information and
discussed selected aspects of contract award and administration.

     The audit was made in accordance with generally accepted
Government auditing standards for performance audits and included
tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the objectives of
the audit. We utilized computer-processed data in a major
Departmental system to identify the universe of support service
contractors and did not fully examine the reliability of the
computer generated data. Because our review was limited, it
would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit.

     We discussed this report with members of the Deputy
Assistant Secretary for Procurement and Assistance Management's
staff on March 30, 1995.

BACKGROUND

     The Department's support service contractors provide a wide
variety of services that help the Department accomplish its
mission. They include grounds maintenance, security, electrical
and plumbing, transportation, and various administrative;
technical; and management support services. Departmental
Headquarters Offices administered 153 of the total 313 active
support service contracts. The other 160 were administered by
other Departmental offices. The majority of the support service
contracts (216) were cost-plus-fixed-fee, 7 were
cost-plus-award-fee, and the remaining 90 were other types such
as fixed-price and labor-hour contracts.

     Support service contracts often require the delivery of an
authorized level-of-effort (direct productive labor hours) that
are controlled through the issuance of task assignments--i.e.,
written plans normally prepared by the program office requiring
the service. Task assignments generally contain a description of
the work needed, the estimated labor hours and cost, and required
deliverables. Service contractor profits are based on direct
productive labor hours provided under the contract.

     The Contract Reform Team in its February 1994 report,
"Making Contracting Work Better and Cost Less," recommended a
series of actions that could result in fundamental changes in the
Department's contracting practices and contract administration
techniques. The report included several concerns with the
Department's support service contracting practices. These
concerns included whether (1) use of cost-reimbursement contracts
is the most cost effective way to acquire contractor services,
(2) service contractors are performing governmental functions,
and (3) service contracts are well managed. They also noted that
the Department's technical and management support service
contracts are generally cost-plus-fixed-fee with work initiated
through issuance of task assignments. While this approach
provides flexibility to meet unplanned program needs, the report
noted that costs frequently exceed original contract estimates
primarily because of poorly defined program requirements; overly
broad statements of work; and underestimated contract hours. The
report further noted that the Department's use of
cost-reimbursement type support service contracts with poorly
defined work requirements shifts the performance and cost risks
to the Department.

     The Reform Team also reported that well defined support
service contracts often may be the most cost-effective means of
procuring expertise. They noted that instead of awarding or
extending cost-reimbursement contracts, the Department should
(1) determine whether discrete tasks or functions can be
performed and separately competed or subcontracted on a
fixed-price basis; (2) develop objective, policy-based
performance measures and incentives when a cost-reimbursement
contract is appropriate for some or all of the work; (3) use the
best contracting approach that addresses required work,
policy-driven requirements, and incentives; and (4) actively
pursue and solicit competition on new contracts.

OBSERVATIONS AND CONCLUSIONS

     The Department did not always obtain support services in the
most economical and effective manner. The absence of a
Departmental policy that addresses the inclusion of subcontractor
labor in support service contractor fee determinations during the
contract pre-award phase resulted in the Department paying $5.1
million in fees to four of six support service contractors for
services exclusively provided by subcontractors. Two
Departmental offices took actions during the pre-award phase to
limit support service contractor fees on two of six support
service contracts. One office negotiated a service contract that
required the support service contractor to share its fees with
several subcontractors. The other office proposed and negotiated
a service contractor fee that was based on the direct labor hours
the support service contractor provided exclusive of
subcontractor hours. These two offices considered these
practices to be economical. Furthermore, in three of six support
service contracts, the Department maintained minimal
administration over major portions of contracted-for support
services because three Departmental offices permitted extensive
subcontracting for specialized support service skills. These
three support service contractors subcontracted from 34 to 56
percent of the work effort. As a result, Departmental
administration of these contracts was diminished which may have
contributed to contract cost growth.

     Our analysis of six cost-plus-award-fee contracts found that
only one of the six contractors received award fees that exceeded
its performance ratings. The Pittsburgh Energy Technology
Center's service contractor received award fees that exceeded the
contractors' performance evaluation score in 5 of 10 evaluation
periods. During these five periods, the contractor received over
99 percent of the available award fee despite the fact that its
performance score ranged from 90.60 percent to 97.38 percent.
The Center paid over $89,000 in award fees that exceeded the
contractors performance because it elected to rollover unearned
fees and make them available in subsequent evaluation periods as
an incentive to improve the contractors performance. However,
our analysis of the performance ratings showed that the
contractors performance only improved marginally in most periods
and, in fact, declined over three consecutive periods.

     The need to limit support service contractor fees during the
pre-award phase to only direct labor hours they expend and ensure
effective administration of service contracts should be
considered by the Department in preparing its yearend assurance
memorandum on internal controls.


                              PART II

                    FINDING AND RECOMMENDATIONS


               Support Service Contract Arrangements


FINDING

     Acquisition regulations require that Federal agencies obtain
support services in the most economical and effective manner. On
management and operating contracts, acquisition regulations
require the Department to exclude estimated subcontract costs
from the fee base under certain conditions. In addition, Federal
agencies are required to exercise effective contract
administration to ensure that the Government maintains control
over its service contracts. The Department did not always obtain
support services in the most economical and effective manner.
The Department (1) negotiated contracts that required it to pay
fees to both support service contractors and subcontractors for
services exclusively provided by subcontractors and (2)
maintained minimal administration over major portions of
contracted-for services on three of six support service
contracts. This occurred because the Department lacked a policy
for addressing the inclusion of subcontractor labor in the
service contractors' fee determinations during the contract
pre-award phase and permitted extensive subcontracting by support
service contractors. Because of these contractual fee
arrangements and extensive subcontracting, the Department paid an
estimated $5.1 million in fees to four of six support service
contractors for work exclusively provided by subcontractors and
may have decreased their ability to control cost growth on three
of six support service contracts.

RECOMMENDATIONS

     We recommend that the Deputy Assistant Secretary for
Procurement and Assistance Management:

     1.   Develop and implement support service pre-award
          procedures starting with the request for proposals that
          ensure the support service contractor's fee is based
          only on the direct labor hours they expend.

     2.   Pursue opportunities to reduce support service
          contractors' subcontracting to a level where the
          Department, not the support service contractor, is
          administering a substantial portion of support services.

MANAGEMENT REACTION

     Management did   not concur with the finding and
recommendations and   noted that they strongly disagree with the
report. Management    stated that they believe the report's
recommendations are   inappropriate and lack supporting rationale.
Detailed management   and auditor comments appear in Part III of
this report.

                          DETAILS OF FINDING


ACQUISITION AND CONTRACT ADMINISTRATION REQUIREMENTS

     The Federal Acquisition Regulation requires that the
Department obtain services in the most economical and effective
manner. This regulation requires a determination of the
resources needed to provide the contracted services and the use
of prudent business judgment in carrying out procurement actions.
Departmental Acquisition Regulations require the Department to
exclude estimated subcontract costs from a management and
operating contractors' fee base when subcontractor costs are of
such magnitude or nature that they distort the technical and
management effort actually required of the management and
operating contractor. However, this is not a requirement for
support service contractors.

     Office of Management and Budget Policy Letter 92-1 requires
that Federal agencies exercise effective oversight of any
contract awarded to ensure that the contract is under the control
of Government officials. The Policy Letter cites several factors
that should be considered in deciding if Government officials
have lost or might lose control over contract administration.
These factors include the degree to which agencies have effective
management policies and procedures that enable meaningful
oversight of contractor performance, the resources available for
such oversight, the agency's oversight practices, the duration of
the contract, and the complexity of the tasks to be performed.

SUPPORT SERVICE PRACTICES

     The Department did not always obtain support services in the
most economical and effective manner. Department contracting
officials' pre-award practices permitted support service
contractors (A,B,D,F) to base their fees on subcontractor as well
as their own costs and labor hours. We also noted that three
service contractors (A,E,B), rather than the Department,
administered 56, 55 and 34 percent, respectively, of the effort
expended on these contracts.

Fee Determinations

     Department contracting officials negotiated contracts that
resulted in fee payments to both support service contractors and
subcontractors for services exclusively provided by
subcontractors. As shown in Table 2 this occurred on four of six
contracts.

IMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMM;
:                                                               :
:                           TABLE 2                             :
:                                                               :
:                 SERVICE CONTRACT FEES PAID                    :
:                                                               :
:          Labor Hours (in 000's)      Fees Paid (in Millions) :
:                                                               :
:                                      Contractor               :
:Service Contractor Subs.      Total    Based on                :
:Contract Hours       Hours    Hours   Total Hrs. Subcontractor :
:   A        186        236      422     $ 1.8       $ .8       :
:   B        311        157      468       1.8         .7       :
:   C      1,866        (a)    1,866       3.7        (a)       :
:   D      5,126      1,519    6,645       6.0        2.5       :
:   E      1,000      1,245    2,245       4.0        (b)       :
:   F      2,114        343    2,457 (c) 15.0         1.5       :
:                                                               :
:(a) Subcontractor hours were excluded from service             :
:     contractor fee determination during the pre-award phase. :
:                                                               :
:(b) Subcontractors share in fees paid to service contractor :
:     as stipulated in the contract.                            :
:                                                               :
:(c) Includes only option period direct labor through           :
:     March 2, 1994.                                            :
HMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMM<
     Unlike management and operating contractors, the Department
allowed support service contractors to negotiate and base their
fees on services exclusively provided by their subcontractors.
This negotiating practice frequently resulted in excessive
negotiated fees for support service contractors. As shown in
Table 3, the Department negotiated support service contractor
fees that ranged from 5 percent to 21.6 percent of the service
contractors' estimated costs. Additional fees of 4.6 to 16.4
percent were paid to subcontractors for their work.

%PAGES
 IMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMM;
 :                                                                  :
 :                             TABLE 3                              :
 :                                                                  :
 :               SERVICE CONTRACTOR AND SUBCONTRACTOR               :
 :                  FEES AS A PERCENTAGE OF COST                    :
 :                                                                  :
 :             Contractor       Total Fees Contractor               :
 : Service        Costs         Negotiated    Fee     Subcontractor :
 : Contract    (in 000's)       (in 000's) Percent     Fee Percent :
 :   A           $10,051          $2,173     21.6      4.9 to 8.1 :
 :   B (a)        19,497           2,226     11.4      6.6 to 16.4 :
 :   C            80,428   (b)     4,826      6.0         (c)       :
 :   D           116,357           8,223      7.1      4.6 to 8.0 :
 :   E            62,293   (d)     3,115      5.0         (d)       :
 :   F           426,806   (b)    42,564     10.0      8.9 to 9.3 :
 :                                                                  :
 :(a) Includes original and Modification 111 of the                 :
 :     contract.                                                    :
 :                                                                  :
 :(b) Includes both service contractor and subcontractor costs :
 :     because costs for each were not available.                   :
 :                                                                  :
 :(c) Fee information not available because subcontracts were       :
 :     generally fixed price.                                       :
 :                                                                  :
 :(d) Includes subcontractor costs and fees because                 :
 :     subcontractors shared in total negotiated fees.              :
 HMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMM<
%PAGEE

     Appendix B shows the actual costs and fees claimed by the
six support service contractors and their major subcontractors.
The following examples illustrate where support service
contractors relied extensively on subcontractors to complete
major portions of contract work assignments and included
subcontractor labor hours in their fee determination.

     In January 1993, the Departmental Headquarters Procurement
Operations Office awarded a $27.7 million contract to support
service contractor A for the contract base period. This included
$10 million in support service contractor costs, $15.5
million in subcontractor costs, and $2.2 million in support
service contractor fees. Support service contractor A was
required to provide 513,000 direct labor hours during a
3-year period for the Department's Environmental Restoration and
Waste Management Program. The 513,000 hours authorized under the
contract included both support service and subcontract labor
hours and, along with the total estimated contract costs, formed
the basis for the negotiated $2.2 million fee. Contract A's
support services included engineering and technical analysis,
quality assurance, planning, training, and outreach activities.
To complement its in-house expertise, the support service
contractor acquired additional broad-based and specialized skills
in such areas as quality management systems; training; and
environmental restoration and waste management activities from
five subcontractors.

     As of February 1994, support service contractor A claimed
422,000 labor hours for work performed on 32 tasks. Five
subcontractors provided over 236,000 of these hours, or 56
percent, and the support service contractor provided the other
186,000 hours. In accordance with negotiated fee arrangements,
the Department paid $1.8 million in fees to this support service
contractor. The contractor's fee was based on his and the
subcontractors' costs and labor hours. Another $800,000 in fees
were paid to subcontractors. In effect, an estimated $1 million
of the $1.8 million the support service contractor received in
fees was based on subcontractor costs and direct labor hours.

     Other examples of fee payments to service contractors for
work exclusively performed by a subcontractor were clearly
evident at the task level. For example, a subcontractor on
support service contract B provided 38,923 of 38,989 labor hours
(99.8 percent) needed for one task. The Department paid a total
of $297,000 in fees for this task: $167,000 was paid to the
service contractor for 66 hours it provided and the 38,923 hours
direct labor hours provided by the subcontractor. The remaining
$130,000 was paid to the subcontractor. On another task, a
subcontractor provided 12,555 of 12,954 hours or 97 percent of
the effort. The Department paid the service contractor $55,000
in fees for 399 direct labor hours it provided and the 12,555
hours provided by the subcontractor. An additional fee of
$74,000 was paid to the subcontractor for this task.

Administration of Support Services Contracts

     The Department maintained minimal administration over major
portions of contracted-for support services on three of six
contracts. The Department's Contract Reform Team also recognized
that the Department was not adequately in control of its
contractors and, consequently, contractors were not sufficiently
accountable to the Department. Our finding supports the Reform
Team's conclusion on three of six service contracts we examined.
As shown in Table 4, support service contractors A, E, and B
subcontracted out 56, 55 and 34 percent, respectively, of their
support service contract with the Department. As a result, the
Department was unable to directly administer major portions of
the services it contracted-for to accomplish its mission and may
have decreased its ability to control cost growth.

 IMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMM;
 :                                                        :
 :                           TABLE 4                      :
 :                                                        :
 :           DIRECT LABOR HOURS CHARGED BY CONTRACT       :
 :                       (in 000's)                       :
 :                                           Percent of   :
 : Service   Total Contractor Subcontractor Subcontract :
 : Contract Hours      Hours         Hours     Effort     :
 :    A        422       186           236       56       :
 :    E      2,245     1,000         1,245       55       :
 :    B        468       311           157       34       :
 :    D      6,645     5,126         1,519       23       :
 :    F      2,457     2,114           343       14       :
 :    C      1,866     1,866            *         *       :
 :                                                        :
 : * Subcontractor direct labor hours not available.      :
 HMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMM<

     The Department did not have "privity of contract" with
subcontractors under the contract terms and, therefore, the
Department relied on its support service contractors to
administer subcontractor work. "Privity of contract" means that
there is a legally recognized connection between parties to a
contract and, therefore, legally enforceable rights exist between
the parties. As shown in Appendix A, service contractor A's
subcontractors provided from 55 percent to 100 percent of the
direct labor on 19 tasks, which included various engineering and
technical analysis support; specialized studies; quality
assurance; planning; and education and training activities.

     The following two examples illustrate that support service
contractor A, not the Department, was administering major
portions of the subcontractor's work. A subcontractor with
specialized training expertise provided over 30,000 of the 33,000
hours needed to conduct training courses for Department
employees. On another task involving technical assistance
activities, graphics and audio/visual services, monitoring trade
publications, and developing an information center, three
subcontractors provided 49,000 of the 59,400 hours or 82 percent
of the hours expended on this task. The scope of work the
service contractor included in the two subcontracted tasks was
essentially identical to the scope of work contained in the
Department's task assignments issued to the service contractor.
According to the service contractor representative, one of the
contractor's functions was to administer the subcontractor's
work. The service contractor representative told us that
subcontractor invoices were reviewed to ensure that claimed costs
were reasonable and allowable and that the subcontractors
performed the work in accordance with the task assignments. We
also discussed the contractors role on the 19 tasks that involved
mostly subcontractor labor with the responsible Departmental
personnel. We were informed that the contractor's direct labor
effort on these tasks primarily involved administering the
subcontractor's work.
DEPARTMENTAL POLICY

     Paying fees to service contractors and subcontractors for
services provided exclusively by the subcontractor and minimally
administering major portions of contracted-for support services
occurred because neither the Department's procurement policy nor
Federal Acquisition Regulations address these issues. References
from the Office of Management and Budget only indicate that
agencies should procure services in an economical manner and
maintain control over services provided by support service
contractors. As a result, the Department permitted each
procurement office to independently negotiate support service
contractor fee arrangements and the extent to which service
contractors subcontracted for services.

Subcontractor Labor Hours

     Procurement officials with Departmental Headquarters,
Chicago Operations Office, and the Yucca Mountain Project Office
negotiated the inclusion of subcontractor direct labor hours in
four of the six service contractors' fee calculations. They
informed us that this is a common practice that occurs on most
contracts and explained that the Department uses the weighted
profit guidelines criteria contained in Federal and Departmental
Acquisition Regulations to establish a profit/fee objective prior
to award. The guidelines allowed contractors to earn a profit
for subcontracted items to compensate them for managing
subcontractor activities.

     However, the Pittsburgh and Morgantown Energy Technology
Centers (Pittsburgh and Morgantown) negotiated support service
contracts that limited support service contractor fees.
Pittsburgh's contract stipulated that the support service
contractor and subcontractors would share fees from an award fee
pool. In accordance with the teaming agreement between the
service contractor and its subcontractors, the award fee was to
be shared among the contractor and subcontractors according to
the costs each incurred. The contractor stated in the teaming
agreement that Pittsburgh "benefits in this approach since there
is no 'pyramiding' of fee; i.e., we do not add fee on fee between
prime and TEAM subcontractors." A Pittsburgh contracting
official told us that there is no Departmental policy that
prohibits contractors from including subcontractor labor in its
fee determinations. However, he advised us that Pittsburgh's
policy is to inform potential contractors prior to negotiations
that they must share fees with their subcontractors. He stated
that this policy is an economical and efficient way to do
business.

     Morgantown negotiated a specified number of direct labor
hours to be provided under support service contract C during the
base and option years of the contract. Morgantown used the
Department's weighted profit guidelines criteria to establish a
profit/fee objective prior to contract award. In accordance with
the guidelines, the support service contractor was permitted to
earn a fee for managing subcontractor activities. However, the
support service contractor's fee was based upon the direct labor
hours the service contractor provided and not upon labor hours or
cost incurred by subcontractors. A Morgantown contracting
official told us that he does not believe the contractor should
receive fees on subcontracted labor noting that including
subcontract labor in support service contractor fee
determinations is costly and an uneconomical practice.

Extensive Subcontracting

     Support service contractors, not the Department,
administered major portions of services the Department needed to
accomplish its mission because some Departmental offices
permitted extensive subcontracting for specialized support
service skills. According to Department contract officials, the
Department did not have "privity of contract" with subcontractors
and, therefore, relied on its support service contractors to
administer subcontractor work. Although Headquarters, Pittsburgh
Energy Technology Center, and Chicago Operations Office were
aware at the time of award that its service contractors would use
subcontractor personnel extensively to meet the broad work
required under the contract statement of work, they awarded these
task order/work segment contracts to ensure that all services
could be obtained quickly as program needs were identified.

     A contracting official advised us that the Chicago
Operations Office awarded a smaller support service contract
based on support service needs identified at that time. However,
new requirements such as those resulting from the Department's
environmental restoration program and tiger team assessments
necessitated significant increases in support services. In March
1993, Departmental Headquarters approved Chicago's request to
increase the cost by $20 million and the level of effort by
266,000 direct labor hours. In its request to Headquarters,
Chicago stated that this increase was needed to "accommodate the
increasing diversity of expertise needed to fully support current
missions assigned to [the Chicago Operations Office], as well as
new missions and expanding responsibilities for current missions,
some of which stem from new and changing guidance and
requirements."

     Although these three Departmental offices contracted for
support services, it was the support service contractor, not the
Department, who administered major portions of the work. For
instance, in its request to Headquarters for authorization to
procure technical expertise through a service contract, the
Chicago Operations Office stated that "no direct Government
supervision and/or direction beyond that given in the task order
will be required or given to the contractor to complete the
assigned tasks. Performance will be at the contractor's
discretion with the requirement that the final documents be
delivered upon final completion."

IMPACT OF PROCUREMENT PRACTICES

     By allowing four support service contractors to collect fees
for services provided exclusively by subcontractors and
maintaining minimal administration over major portions of
contracted-for support services on three of six contracts, the
Department may be contributing to increases in contract costs.
We estimated that $5.1 million in fees paid to four support
service contractors could have been avoided if during the
pre-award phase, the Department prohibited subcontractor labor
hours from support service contractor fee calculations. As shown
in Table 5, a significant portion of fees paid to four of six
support service contractors were based on labor hours provided by
subcontractors.

 IMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMM;
 :                             TABLE 5                          :
 :                                                              :
 :                     FEE PAYMENTS BY CONTRACT                 :
 :                         (in millions)                        :
 :                                                              :
 :                 Service Contractor Fees                      :
 :                     Based on     Based on                    :
 : Service            Contractor Subcontract    Subcontractor   :
 : Contract   Total      Hours         Hours        Fees        :
 :     A      $1.8      $0.8           $1.0          $0.8       :
 :     B       1.8       1.2            0.6           0.7       :
 :     D       6.0       4.6            1.4           2.5       :
 :     F      15.0      12.9            2.1           1.5       :
 :   Totals $24.6      $19.5           $5.1          $5.5*      :
 :            MMMM      MMMM            MMM           MMM       :
 :                                                              :
 :    * Includes fees only for major subcontractors.            :
 :                                                              :
 HMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMM<

     In addition, the Department's ability to effectively
administer its support service contracts was diminished, and this
may have contributed to contract cost growth. Departmental
offices relied on support service contractors to acquire the
necessary labor skills from subcontractors and ensure that the
subcontractors' work on many task assignments were within cost
limitations, within the scope of work, and were performed in a
timely manner. This diminished control was also recognized by
the Department's Contract Reform Team and in the Secretary of
Energy's May 26, 1993, testimony on Departmental contract
administration before the House Committee on Energy and Commerce.
The Reform Team reported that Departmental program officials
often rely on support service contractors to perform many daily
functions with limited oversight of contractor performance. In
her testimony, the Secretary noted that some Departmental
activities that should be performed by Federal staff are being
carried out by contractors. The Secretary also stated that the
Department's heavy reliance on contractors with relatively small
Federal staff raises serious concerns about how effectively the
Department can manage its missions and whether Department
personnel have the expertise necessary to do their jobs.
Furthermore, Office of Management and Budget Policy Letter 92-1
highlights the problem of lack of contract oversight as a loss of
Government control and requires Federal agencies to be aware of
their existing contract oversight responsibilities.

     One example where diminished Department administration may
be partly the cause for contract cost growth is a Headquarter's
support service contract which authorized $27.7 million and
513,000 direct labor hours over the 3-year base period. The
contractor spent $25.4 million and used 422,000 hours, or 82
percent, in the first 14 months. A portion of the hours directly
provided by the service contractor were used to administer the
subcontractor's work. According to Department contract
representatives, this contractor will likely expend the
authorized direct labor hours before the contract period expires.
Consequently, the Department planned to solicit and award another
contract to purchase more direct labor hours to satisfy its
environmental restoration and waste management support service
requirements for the remaining contract period.

     In another example, the Chicago Operations Office's $15.2
million support service contract for 239,475 direct labor hours
increased to 651,000 authorized hours at an estimated cost of
$44 million over the 5-year contract period. Its subcontractors
were initially expected to provide 90,675 hours at an estimated
cost of $6.4 million. However, by March 1994 subcontractors
expended 157,000 hours and subcontractor costs rose to over $11
million. This increase in the level-of-effort was needed to
obtain a broader diversity of skills than originally planned to
meet current as well as new and expanding missions assigned to
the Chicago Operations Office. As of March 1994, the contractor
spent over $31 million and expended 468,000 direct labor hours.

                               PART III

                    MANAGEMENT AND AUDITOR COMMENTS


     In responding to our initial draft version of this report,
the Office of Procurement and Assistance Management did not
concur with the report finding and recommendations noting that
the recommendations are inappropriate and lack supporting
rationale. A summary of management and auditor comments follow.

Recommendation 1.

     The Deputy Assistant Secretary for Procurement and
Assistance Management develop and implement support service
pre-award procedures starting with the request for proposals
that ensure the support service contractors's fee is based only
on the direct labor hours they expend.

     Management Comments. Management did not concur with the
recommendation. Management stated that the Department of Energy
Acquisition Regulation Subpart 915.9 (Profit) provides adequate
coverage of fee considerations regarding subcontractor services,
which are included in the Department's fee policy. Generally,
the weighted guidelines method is used to calculate fee. The
intent is to remunerate contractors for financial and other risks
they assume, resources they use, and organization, performance,
and management capabilities they employ.

     Management stated that 915.970-2(d) of the Department's
Acquisition Regulations specify a fee range of 1 to 4 percent for
subcontracted items verses a fee range of 4 to 14 percent for
services not subcontracted. Since the fee is based on many
factors, almost all of which are weighted more heavily than
subcontracts, our calculations in Tables 2 and 5 of the initial
draft report are probably not accurate because they assume a
uniform weight that was applied to all factors. In addition,
management noted that 915.970-8(b)(2)(i) directs the contracting
officer to consider the managerial and technical effort necessary
for the prime contractor(s) to select subcontractors and
administer subcontracts.

     Management also noted that a fee is negotiated after
consideration of a number factors including subcontract efforts.
Thus, it would be counterproductive to arbitrarily limit or
exclude one factor without giving consideration to the overall
effort to be performed under a contract. One possible
consequence of this recommendation would be that it is highly
likely that contractors would perform more work themselves, which
would certainly lead to higher fee payments (assuming the use of
weighted guidelines) and also to higher overall labor costs.

     Auditor Comments. We do not share management's view that
the report recommendations are inappropriate and lack supporting
rationale. In our analysis of the six service contracts, we
considered the methods used to establish the support service
contractors' fee, including the use of weighted guidelines. The
weighted guidelines profit/fee objective criteria does not
prevent excessive fee payments. In fact, this criteria was used
by the Department to establish a Departmental profit/fee
objective for four of six support service contracts. These four
included the Pittsburgh and Morgantown contracts which limited
fee payments, and two of the four contracts (B and D) where the
Department paid substantial fees for support services. The four
contracts in question were not negotiated in an economical
manner. The Department negotiated fees for the four support
service contractors which included subcontractor labor hours in
their actual fee determinations. This resulted in substantial
fees on several contracts. For example, the Department
negotiated fees on support service contracts A and B of 21.6 and
11.4 percent of service contractor costs excluding subcontractor
effort. Additional fees of 4.6 percent to 16.4 percent were paid
to subcontractors performing work for service contractors. In
effect, the Department's negotiating practice resulted in the
Department paying fees to four support service contractors for
work provided exclusively by subcontractors.

     We agree that support service contractors should be
compensated for managing subcontractor activities as set forth in
the weighted guidelines. However, it is uneconomical to
negotiate support service contractor fees using the weighted
guideline factors or any other method if adequate controls do not
exist to ensure that support service contractor fees are based
solely on the direct labor hours they expend. The practices
followed by Morgantown and Pittsburgh to procure support services
were economical and provided adequate controls to prevent service
contractors from earning fees on subcontracted labor. The
Department should implement Morgantown's and Pittsburgh's support
services contracting practices Departmentwide because they
represent best business practices. This is consistent with the
views expressed by the Contract Reform Team in its February 1994
report that noted the Department should use the best contracting
approach that addresses the required work.

     Morgantown established a fee objective for subcontracted
items for support service contractor C in its weighted guidelines
analysis. However, Morgantown required in its request for
proposals that the support service contractor's negotiated fee be
based solely on the direct labor hours they expend, including
their efforts in managing subcontractor activities, but not for
direct labor expended by subcontractors. Consequently, the
support service contractor was paid fees based on the direct
labor they expended and not for the direct labor hours incurred
by subcontractors.

     Pittsburgh used the weighted guidelines to establish a
profit/fee objective for support service contractor E.
Pittsburgh negotiated the support service contractor's fee based
on total direct labor hours, including subcontractor hours, but
did not assign a weight for subcontracted items. In addition,
Pittsburgh stipulated in the contract that any award fee earned
shall be paid to the support service contractor and distributed
among its subcontractors. This approach ensured that the
Department did not pay a fee to both the support service
contractor and subcontractors for the same direct labor hours
expended.

     Management stated that the calculations in Tables 2 and 5
probably are not accurate. Our estimates were accurate because
they were based on contractual requirements for determining
support service contractor fees that stipulated that support
service contractor fees would be based on its and the
subcontractors' direct labor hours expended. Using this
approach, our estimates were calculated by multiplying the
percentage of direct labor hours expended by subcontractors by
the cumulative fees claimed on the support service contractor's
invoice.

     Additionally, our recommendation would not result in support
service contractors doing significantly more work themselves.
Consequently, our recommendation would not lead to higher fee
payments (assuming use of weighted guidelines) and higher overall
labor costs for several reasons. First, the weighted guidelines
already provide a financial incentive for service contractors to
use in-house rather than subcontracted labor by allowing them to
earn more fee; i.e., higher fee percentages are assigned to
in-house labor. Second, weighted guidelines are not used in all
cases. As noted previously, weighted guidelines were completed
on four of six contracts, but only two of the four contracts in
question. Third, assuming that support service contractors used
more in-house labor, any additional fees paid to service
contractors would likely be offset through significant reductions
in subcontractor fees and overhead charged by service contractors
on subcontractor costs. Finally, support service contractors
often may not have the in-house expertise to complete the work
forcing them to rely heavily on subcontracted work. For example,
contractors A and B relied extensively on subcontractors to
complete many of the contract tasks because they did not have
sufficient in-house expertise to complete those tasks.

Recommendation 2.

     The Deputy Assistant Secretary for Procurement and
Assistance Management pursue opportunities to reduce support
service contractors' subcontracting to a level where the
Department, not the support service contractor, is administering
a substantial portion of support services.

     Management Comments. Management did not concur with the
recommendation. Management commented that the initial draft
report implies that subcontracting to any significant extent
indicates a lack of control and did not believe a certain level
of subcontracting indicates that the Department has abdicated its
contract management responsibility. In some cases,
subcontracting may be the most economical and effective means to
obtain the right services at the lowest possible cost.
Management noted that the examples given in the report appear to
illustrate an increase in the Department's requirements, not a
lack of control over the prime contractor.

     Auditor Comments. Acquisition Letter 92-3 indicates that in
the absence of a direct contractual relationship with the
subcontractor, the Department's legal basis for administering
subcontract work is through the support service contractor.
While the Department is directly responsible for support service
contractor performance and may not have relinquished its contract
responsibilities in this regard and the fact that the Department
does not have "privity of contract" with subcontractors, forces
the Department to rely on its support service contractors to
administer subcontracted work and ensure that subcontractors
comply with contractual and task assignment requirements.

     Furthermore, the examples provided on pages 15 through 17 of
the report noted that there were increases in the Department's
requirements that contributed to cost growth on support service
contracts A and B. However, additional overhead charges and fees
associated with extensive subcontracting may also be a
contributing factor to contract cost growth. While we do not
dispute that subcontracting in some cases may be the most
economical method to procure support services, the issue raised
in this report is whether the Department is able to effectively
administer contract work that involves extensive subcontracting.
To ensure that the Department effectively administers major
portions of contracted-for support services, we believe the
Department should pursue opportunities to reduce the level of
subcontracting on service contracts that require substantial
subcontractor effort. This can be accomplished by contracting
directly with the subcontractor who is providing the support
service.


                              PART IV

                           OTHER MATTERS
          Award Fees Paid to Support Service Contractors


     The Department of Energy Acquisition Regulations require the
Department to evaluate award fee contractors and determine their
award fee at the end of specified evaluation periods. The award
fee is the amount of money potentially available to the
contractor for performance above minimally acceptable levels.
The regulation states that payment of an award fee shall
generally reflect a contractors performance during specified
contract evaluation periods. However, the regulations also allow
fee determination officials at their discretion to accumulate
unearned fees and make those fees available for award in
subsequent evaluation periods.

     We reviewed six cost-plus-award-fee contracts. In each
case, the contractor's performance was assessed and rated for
award fee purposes at periodic intervals according to performance
evaluation plans. These plans required the Department to
evaluate the contractor's performance and prepare a performance
evaluation report for each evaluation period that would serve as
the basis for the award fee determination official's decision on
the amount of fee awarded to each contractor.

     Our review disclosed that a Pittsburgh Energy Technology
Center (Pittsburgh) contractor received award fees that exceeded
its performance ratings. This occurred because Pittsburgh
elected to rollover unearned portions of fees from prior
evaluation periods and make them available in the next evaluation
period. As a result, Pittsburgh unnecessarily paid the
contractor over $89,000 in award fees. A contract official told
us that Pittsburgh elected to rollover the unearned fees on this
contract because it provided the contractor with a financial
incentive to improve performance in deficient areas. Other
Departmental offices did not rollover unearned fees to subsequent
evaluation periods on their cost-plus-award-fee contracts.
Departmental officials at these locations told us that they did
not rollover unearned fees because they felt that the contractor
should only receive the portion of the original designated award
fee that it earned.

     As shown in Table 6, Pittsburgh's support service contractor
received over 99 percent of the maximum available award fee in 5
of the 10 evaluation periods even though the contractor's
performance ratings were lower than 99 percent in all 5 periods
and declined over periods 4 through 6. For all 10 periods
combined, the contractor received 97.72 percent of the maximum
award fee available even though the contractor's performance
ranged from 90.60 percent to 97.38 percent during the 10
evaluation periods. For example in Evaluation Period 1, the
contractor earned $368,033 of the $406,218 maximum available fee
based on a 90.60 percent performance rating. Pittsburgh elected
to rollover the unearned portion of $38,185 to Period 2. The
contractor was paid 95.32 percent (Period 2's evaluation score)
of the unearned fee or $36,397.
     Although award fee rollover is permitted and could provide
an incentive to improve contractor performance, the incentive was
not effective in this case. Table 6 shows that the contractor
made significant improvements in performance in only 1 of the 10
evaluation periods. Further, this practice resulted in the
contractor being rewarded for declining performance over an
18-month period (covering Periods 4 through 6). As a result, we
suggest that Pittsburgh adopt the practices of the other offices
reviewed and discontinue the rollover of unearned award fees on
its support service contract unless unusual circumstances warrant
such a practice.



 IMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMM;
 :                           TABLE 6                            :
 :                                                              :
 :             AWARD FEES PAID BY EVALUATION PERIOD             :
 :                                                              :
 :           Maximum      Total    Percent Performance Rollover :
 : Period   Available     Paid      Paid     Rating    Portion :
 :                                                              :
 :   1      $406,218    $404,430    99.56    90.60      $36,397 :
 :   2       406,218     387,207    95.32    95.32            0 :
 :   3       426,786     425,948    99.81    95.62       17,856 :
 :   4       426,786     407,666    95.52    95.52            0 :
 :   5       426,786     425,855    99.79    95.46       18,446 :
 :   6       426,786     406,300    95.20    95.20            0 :
 :   7       316,417     316,074    99.90    96.24       11,555 :
 :   8       563,030     546,815    97.12    97.12            0 :
 :   9       322,827     319,614    99.01    97.38        5,245 :
 : 10        369,010     357,571    96.90    96.90            0 :
 :                                                              :
 :Totals $4,090,861 $3,997,480      97.72    95.54      $89,499 :
 :         MMMMMMMMM   MMMMMMMMM    MMMMM    MMMMM       MMMMMM :
 HMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMM<
                                 PART V

                              APPENDIX A




     IMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMM;
     :                                                      :
     :              SUPPORT SERVICE CONTRACT A              :
     :                 LABOR HOURS BY TASK                  :
     :                                                      :
     :              Contractor Subcontractor                :
     :     Task       Hours        Hours       Percentage   :
     :                                                      :
     :      1         8,841       10,760           55       :
     :      2        10,797       14,271           57       :
     :      3         5,179        8,816           63       :
     :      4        12,541       25,860           67       :
     :      5             6           17           74       :
     :      6           119          417           78       :
       :      7         3,645       14,602           80       :
       :      8           102          461           82       :
       :      9           719        3,289           82       :
       :     10        10,453       48,995           82       :
       :     11           178        1,189           87       :
       :     12            19          137           88       :
       :     13           158        1,332           89       :
       :     14         2,315       30,703           93       :
       :     15           589       13,854           96       :
       :     16           123        5,589           98       :
       :     17             0          380          100       :
       :     18             1        1,792          100       :
       :     19             0        1,220          100       :
       :                                                      :
       :     Totals    55,785      183,684           77       :
       :               MMMMMM      MMMMMMM          MMM       :
       :                                                      :
       HMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMMM<
                                      APPENDIX B

                    SUPPORT SERVICE CONTRACTOR AND SUBCONTRACTOR
                        ACTUAL COSTS, FEES, AND LABOR HOURS
                                      (in 000's)

             SUPPORT SERVICE CONTRACTORS               MAJOR
             SUBCONTRACTOR
           -----------------------------
           -------------------------------
 SERVICE                         FEE     LABOR
 FEE     LABOR
CONTRACT     COSTS    FEES     PERCENT HOURS     COSTS     FEES
PERCENT HOURSa/
-------- -------- -------- -------- ------ -------- -------
------- ------
     A      $9,734   $1,790    18.39%     186  $10,785     $756
     7.01%     205
     B      18,366    1,866    10.16%     311    8,653       703
     8.12%     127
     C      50,734    3,661     7.22% 1,866     22,918         b/
     b/       b/
     D     148,966    5,955     4.00% 5,126     39,510    2,497
     6.32% 1,441
     E      84,418    3,997     4.73% 1,000          c/        c/
     c/ 1,245
     F     228,336   23,184 d/ 10.15% 2,114 e/ 16,381     1,501
     9.16%     261


a/ - Labor hours are less than subcontractor hours shown in
     Tables 2 and 4 because they include only major
     subcontractors.

b/ - Subcontractor data not available.

c/ -    Support service contractor shares fees with subcontractors.

d/ - Includes base and option period service contractor fees.
e/ - Includes only option period labor hours.
